OCTOBER 29, 2008

  AUDIT REPORT




                                                      OFFICE OF AUDITS




       NASA’S CONFERENCE PLANNING PROCESS
               NEEDS IMPROVEMENT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-002 (ASSIGNMENT NO. A-08-014-00)
Final report released by:



       signed
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

CFO          Chief Financial Officer
FAP          Fundamental Aeronautics Program
FMR          NASA Financial Management Requirements
FTR          Federal Travel Regulation
FY           Fiscal Year
GSA          General Services Administration
M&IE         Meals and Incidental Expense
NSSC         NASA Shared Services Center
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General


                                                      REPORT NO. IG-09-002
OCTOBER 29, 2008




                                                                            OVERVIEW

                NASA’S CONFERENCE PLANNING PROCESS
                        NEEDS IMPROVEMENT

                                                                             The Issue

   The Consolidated Appropriations Act, 2008 (Public Law 110-161), requires NASA to
   submit quarterly reports to the Office of the Inspector General (OIG) on costs and
   contracting procedures used to provide NASA-sponsored fiscal year (FY) 2008
   conferences or meetings with costs exceeding $20,000. The Act requires OIG to analyze
   these quarterly reports and provide an analytical report, with recommendations as
   necessary, to the House and Senate Appropriations Committees no later than
   September 30, 2008.

   As of October 16, 2008, NASA had provided data on conferences with costs exceeding
   $20,000 for the first and second quarters of FY 2008 (October 2007–March 2008).
   NASA provided preliminary data for the first quarter of FY 2008 in a draft document
   dated May 15, 2008. However, NASA did not provide final first quarter data until July 7,
   2008, and did not provide second quarter data until July 25, 2008. The timing of
   NASA’s submissions precluded OIG from providing a sufficiently thorough analysis to
   satisfy the reporting requirements for Public Law 110-161 and resulted in a scope
   limitation. Our review was limited to the three conferences identified by NASA in its
   May 2008 draft report. As NASA has recently revised its criteria for what is includable
   as a reportable conference, we identified an additional scope limitation on this review.
   We reviewed cost documentation for these conferences to determine if NASA followed
   Federal contracting procedures and Federal Travel Regulation (FTR). Rather than focus
   on assessing the completeness and accuracy of NASA’s report, we focused on reviewing
   the supporting information and data for the three conferences reported to us in May 2008.
   Details of the audit’s scope and methodology are in Appendix A.

                                                                                 Results

   For the three conferences we reviewed, NASA conference planners did not incorporate
   all information required to accurately estimate conference costs. NASA requires
   conference planners to collect comprehensive cost information for two reasons: to allow
   managers to make informed business judgments about whether proposed expenditures are
   reasonable and necessary and to ensure that costs, when incurred, meet the Government’s
   expectations in terms of what it is getting and at what price. Failing to use the cost-
   estimating internal control for conferences prevents the Agency from exercising business



REPORT NO. IG-09-002
                                                                                       OVERVIEW



     judgment in decision making and makes the Agency vulnerable to excessive charges for
     meals, incidentals, and associated charges. Conference planners were unaware of the
     information required by NASA’s Financial Management Requirements (FMR) for
     conference cost estimation and location selection. As a result, conference planners
     significantly underestimated conference costs (at least in terms of required
     documentation) for the three conferences we reviewed by a total, for all three, of
     approximately $604,000, thus, costs averaged 263 percent more than estimated. For
     example, NASA spent approximately $147,000 on light refreshments for the three
     conferences we reviewed, which involved add-on costs not subject to review pursuant to
     the internal control system designed to cause such review. In addition, conference
     planners did not make informed, cost-effective decisions when selecting locations to
     meet the Government’s needs or comply with the Administration’s direction as regards
     avoiding conferences at resorts. By underestimating conference costs, conference
     planners increased the risk that program budgets could be negatively impacted by
     conference cost overruns.

     In addition, some conference attendees claimed, and NASA reimbursed them for,
     unallowable meal costs. Specifically, we identified instances of travelers not adjusting
     M&IE rates to reflect when NASA provided meals. In addition, some travelers received
     full M&IE rates on days when they were in transit to or from the location, which is not in
     compliance with NASA policy. This occurred because NASA travelers and travel
     voucher preparers did not adjust M&IE rates appropriately and approvers did not identify
     inappropriate M&IE rates during review. As a result, NASA inappropriately spent
     approximately $768 for Government-provided meals and an additional $531 for the
     non-reduced M&IE.

     Management Action

     We recommended that the NASA Chief Financial Officer (CFO) revise NASA’s FMR
     (August 2008), Appendix A, to include instructions for completing the NASA Sponsored
     Conference – Approval to Conduct form, clarify the form number, and ensure that NASA
     conference planners are aware of Federal and Agency conference planning policies and
     procedures to include the policies put forth in the NASA Administrator’s November 16,
     2005, memorandum. We also recommended that the NASA CFO issue an Agency-wide
     reminder to travelers, as well as travel voucher preparers and approvers, of the FTR
     requirement to reduce M&IE rates provided during temporary duty travel when the
     Government furnishes meals. Finally, we recommended that the NASA CFO require
     conference planners to notify conference attendees when M&IE rates should be adjusted
     due to the Government providing meals at NASA-sponsored conferences.

     The Deputy CFO concurred with our recommendation to revise the NASA FMR and also
     concurred with our recommendation to remind travelers, travel voucher preparers, and
     approvers of requirements to reduce M&IE rates when the Government provides meals
     and stated that OCFO will issue appropriate instructions to address both


ii                                                                         REPORT NO. IG-09-002
OVERVIEW



  recommendations by December 31, 2008. The Deputy CFO partially concurred with our
  recommendation to require conference planners to notify conference attendees when
  meals will be provided by the Government, noting that conference planners might not
  always be the appropriate or most effective person(s) to provide attendees with a
  reminder about the FTR’s requirements regarding reducing allowable M&IE rates. In
  addition, the Deputy CFO stated that OCFO will issue appropriate guidance on
  complying with the FTR’s requirements and NASA’s FMR by December 31, 2008.
  Management’s comments are responsive; however, all three recommendations will
  remain open until we have verified that the new instructions and guidance issued meets
  the intent of the recommendations. (See Appendix D for the full text of management’s
  comments.)




REPORT NO. IG-09-002                                                                       iii
OCTOBER 29, 2008




                                                           CONTENTS

   INTRODUCTION
      Background __________________________________________ 1
      Objectives and Scope Limitation __________________________ 2
      Other Matters of Interest _______________________________ 2

   RESULTS
      Finding A: Conference Planning Activities Need Improvement ___ 4
      Finding B: Incorrect Meal Allowances Paid to NASA
         Conference Attendees_______________________________ 14

   APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls _____________________________ 21
      Prior Coverage_______________________________________ 22

   APPENDIX B
      Conference Approval Form _____________________________ 23

   APPENDIX C
      NASA Administrator’s Memorandum ______________________ 25

   APPENDIX D
      Management Comments _______________________________ 28

   APPENDIX E
      Report Distribution ___________________________________ 32




REPORT NO. IG-09-002
OCTOBER 29, 2008




                                                                                    INTRODUCTION


Background

   The Consolidated Appropriations Act, 2008 (Public Law 110-161), December 26, 2007,
   requires NASA to submit quarterly reports to the Office of the Inspector General (OIG)
   identifying costs and contracting procedures for NASA-sponsored fiscal year (FY) 2008
   conferences or meetings (called conferences throughout) with costs exceeding $20,000.
   For each such conference, NASA should specify the purpose of the conference, number
   of conference attendees, a detailed statement of the conference costs, and a description of
   the contracting procedures used to carry out the event. The description of contracting
   procedures should note whether NASA awarded contracts on a competitive basis and
   discuss any cost comparisons conducted. The Act contains an accompanying statement
   that the OIG shall analyze NASA’s reports, make recommendations, if necessary, and
   provide an analytical report citing each conference identified and any recommendations
   to the House and Senate Appropriations Committees no later than September 30, 2008.

   Our review was limited to the three conferences NASA initially identified in its May 15,
   2008, draft report on conferences with costs exceeding $20,000 and held during the first
   quarter of FY 2008. In attendance were NASA employees, contractor employees, and
   other agency representatives.

         •   Procurement Training Conference held in Orlando, Florida, October 16–18, 2007,
             for 144 attendees, costing approximately $248,000.

         •   Fundamental Aeronautics Program (FAP) Annual Conference held in New
             Orleans, Louisiana, October 30–November 1, 2007, for 418 attendees, costing
             approximately $367,000.1

         •   Aviation Safety Technical Conference held in St. Louis, Missouri, October 9–12,
             2007, for 281 attendees, costing approximately $219,000.

   For these three conferences, NASA relied on contracted event planners to perform
   conference planning services such as finding a hotel that met the sponsoring
   organization’s requirements, arranging and negotiating snack and meal costs, maintaining
   a Web site for registration, conducting on-site registration, and providing hand-out
   materials. To have a contractor provide conference-planning services, the contracted
   event planner and the responsible NASA conference-planning official agree on a cost
   proposal, which identifies services to be provided and total cost. The conference planner

   1
       The approximate total cost and number of attendees as reported in the final “First Quarter FY 2008
       Report on NASA Sponsored Conference,” dated July 7, 2008.



REPORT NO. IG-09-002                                                                                        1
                                                                                  INTRODUCTION



    then completes the NASA Sponsored Conference – Approval to Conduct form
    (Appendix B). The instructions note that this form must be approved by a NASA
    “Officials in Charge of Headquarters Offices,” Center Directors, or their designee.


Objectives and Scope Limitation

    The overall audit objective was to determine whether NASA complied with the
    requirements of Public Law 110-161; submitted complete, accurate, and reliable
    information to the OIG; and followed Federal contracting procedures and Federal Travel
    Regulation (FTR) to minimize conference costs. We recognize that this is a new
    reporting requirement for NASA that has resulted in an intensive manual effort to achieve
    compliance because the Agency’s information systems are not currently configured to
    collect and report this information in a fully automated manner. Therefore, rather than
    focus on assessing the completeness and accuracy of NASA’s report, we focused on
    reviewing the supporting information and data for the three conferences reported to us in
    May 2008. We also reviewed internal controls as they related to the overall objective.

    As of September 9, 2008, NASA had provided data for the first and second quarters of
    FY 2008. However, NASA did not provide final first quarter data until July 7, 2008, and
    did not provide second quarter data until July 25, 2008. The timing of NASA’s
    submissions precluded OIG from providing a sufficiently thorough analysis to satisfy the
    reporting requirements for Public Law 110-161. Therefore, we limited our review to the
    original three conferences reported to the OIG on May 15, 2008, in the First Quarter
    FY 2008 Report on NASA Sponsored Conferences (Draft).

    The scope of our audit was also limited due to a disagreement between NASA and OIG
    on the interpretation of the reporting requirement. Specifically, reports for the first and
    second quarter on conferences with costs exceeding $20,000 may have excluded training
    conferences and excluded conferences that were attended only by NASA employees and
    NASA contractors because NASA was considering contractors to be employees. NASA
    has since agreed with the OIG to include conferences at which NASA provides training
    to attendees off-site (i.e., not at a NASA facility) and conferences attended by NASA and
    NASA contractors. This resulted in a scope limitation because these two categories were
    excluded from the first quarter report we reviewed. See Appendix A for details of the
    audit’s scope and methodology, more detail regarding the scope limitation, our review of
    internal controls, and a list of prior coverage.


Other Matters of Interest

    On July 25, 2008, NASA provided the OIG with the Second Quarter FY 2008 Report on
    NASA Sponsored Conferences. NASA reported four conferences with costs exceeding
    $20,000. While the OIG is required to review cost documentation for these conferences,
    to do so at this time would preclude our meeting the statutory deadline of September 30,


2                                                                          REPORT NO. IG-09-002
INTRODUCTION



   2008, for reporting our findings based on a substantive analysis of the data. However, a
   summary of the data NASA reported for the four conferences is provided in Table 1.

                    Table 1. Second Quarter FY 2008 Conference Locations,
                                  Attendees, and Total Cost
                                                              Number of
              Conference Title                Location        Attendees      Total Costs
      Pr-Service Institute - Workshop    Anchorage, AK             24        $86,410.00
      Third NASA/JAXA International      Las Vegas, NV            202       $195,550.11
      TRMM Science Conference
      NASA PM Challenge 2008             Daytona Beach, FL        714       $848,172.54
      Conference
      Airspace Systems Technical         Austin, TX               216       $155,258.93
      Interchange Meeting

   Since this reporting requirement will continue in FY 2009, we plan to review these
   conferences in conjunction with our FY 2009 audit.




REPORT NO. IG-09-002                                                                          3
                                                                                        RESULTS




                                                     FINDING A: CONFERENCE
                                                   PLANNING ACTIVITIES NEED
                                                              IMPROVEMENT

           For the three conferences we reviewed, NASA conference planners did not
           incorporate all information required to accurately estimate conference costs. In
           addition, one conference planner chose a resort hotel as a conference location despite
           a memorandum from the Administrator noting that selecting resort locations could
           create the appearance that the event is wasting Government resources. These issues
           arose because conference planners were unaware of the information required by
           NASA’s FMR for conference cost estimation and location selection. As a result,
           conference planners significantly underestimated conference costs for the three
           conferences we reviewed by a total, for all three, of approximately $604,000; thus
           costs averaged 263 percent more than estimated. In addition, conference planners
           did not make informed, cost-effective decisions when selecting locations to meet the
           Government’s needs. Further, by underestimating conference costs, conference
           planners increased the risk that program budgets could be negatively impacted by
           conference cost overruns.


Conference Planning Guidance

    NASA is required to follow applicable Agency and Federal requirements for planning
    and holding an Agency-sponsored conference. Conference planning guidance is
    contained in the General Services Administration’s (GSA), FTR, NASA’s FMR, and a
    November 2005 memorandum from the NASA Administrator to Officials-in-Charge of
    Headquarters Offices and Center Directors concerning planning Agency-sponsored
    events. NASA uses an internal form, NASA Sponsored Conference – Approval to
    Conduct, that staff are required to use to plan Agency-sponsored conferences and
    estimate total conference costs.

    Federal Conference Planning Guidance. FTR, Chapter 301, “Temporary Duty Travel
    Regulations,” Part 301-74 and Appendix E, provide conference-planning guidance for
    Federal agencies. The guidance states that when planning a conference, agencies must
    minimize all conference costs, including administrative costs and conference attendees’
    travel costs. In addition, agencies must maximize the use of Government-owned or
    Government-provided conference facilities as much as possible. Lastly, agencies must
    develop and establish internal policies to ensure these standards are met. The guidance
    also states that agencies should consider all direct and indirect conference costs paid by
    the Government, whether paid directly by agencies or reimbursed by agencies to travelers
    or others associated with the conference.




4                                                                         REPORT NO. IG-09-002
RESULTS



   To determine which conference expenditures result in the greatest advantage to the
   Government, the FTR states that agencies must assure there is appropriate management
   oversight of the planning process. In addition, agencies must always do cost
   comparisons of the size, scope, and location of the proposed conference. Moreover, for
   each conference an agency sponsors or funds, in whole or in part, for 30 or more
   attendees, the agency must consider at least three sites and maintain a record of the costs
   of each alternative site considered. The FTR further states that these records must be
   made available for inspection to the agency’s OIG or other interested parties.

   NASA’s Conference Planning Guidance. NASA FMR, Volume 12, Part 301-74, April
   2005, clarifies conference guidance provided in the FTR and requires the preparation of
   the NASA Sponsored Conference – Approval to Conduct form, which is referenced and
   shown in Appendix A of the FMR (without a designated form number). The instructions
   for completing the form are not found within the FMR; however, they are on-line at
   NASA Electronic Forms Web site with a form identified as GRC-634, NASA Sponsored
   Conference – Approval to Conduct. (See Appendix B for the Approval form.) The
   GRC-634 instructions direct conference planners to determine estimated travel costs for
   all NASA conference attendees by including travel and per diem expenses, lodging rates,
   and ground transportation costs. Planners are also directed by the instructions to estimate
   conference services costs and provide examples of such costs, which should include, but
   not be limited to, meeting room costs, audiovisual equipment, light refreshments, and
   printing.

   With regard to selecting a conference location, the NASA Administrator issued a
   memorandum on November 16, 2005 (Appendix C), that provides guidance on
   conference planning. The memorandum states, in part, that

          . . . Government-owned facilities, including NASA Centers, should be considered as
          event locations if suitable facilities are available. Sites within 25 miles of a NASA
          Center are preferable, since not all attendees would then require hotel accommodations.

          Aside from cost considerations, employees must be conscious of appearance concerns
          when selecting an event location. Selecting sites in exotic or resort destinations may
          create the appearance that the event is wasting Government resources in order to
          facilitate personal vacations or entertainment for employees. Employees should take care
          to select event locations that are cost justified, appropriate to the purpose of the event,
          and which minimize, to the greatest extent possible, any appearance of impropriety. . . .




Information Provided on Conference Approval Forms Was
  Inaccurate and Incomplete

   NASA officials responsible for signing the approval forms for the three conferences we
   reviewed did not ensure that the information on the forms was accurate and complete.
   The form should provide an estimate of all direct and indirect conference costs.


REPORT NO. IG-09-002                                                                                    5
                                                                                                        RESULTS



    Comparing the estimates with actual totals reported to the OIG on July 7, 2008, we
    identified significant underestimates of costs. See Table 2 for the estimated cost as
    indicated on the approval forms and the actual cost as reported by NASA, and the
    difference between the two amounts.

                              Table 2. Conference Costs – Estimated vs. Actual

      Conference                            Number of        Estimated         Actual         Cost in Excess
         Title                Dates         Attendees          Cost             Cost           of Estimate
    Procurement           October 16–           144         $94,863.00       $248,123.11       $153,260.11
    Training              18, 2007
    Conference
    Fundamental           October 30–           418         $75,000.00       $366,517.50       $291,517.50
    Aeronautics           November 1,
    Program               2007
    Annual
    Conferencea
    Aviation Safety       October 9–12,         281         $60,000.00       $218,813.67       $158,813.67
    Technical             2007
    Conference
    a
        The approximate cost and number of attendees (NASA employees, contractor employees, and other
        agency representatives) as reported in the final “First Quarter FY 2008 Report on NASA Sponsored
        Conferences,” dated July 7, 2008.

    Procurement Training Conference. The NASA conference planner completed
    GRC-634 but underestimated conference costs by approximately $150,000, or
    162 percent. This occurred because the planner did not estimate costs for all the items
    needed to hold the conference. Further, the NASA conference planner chose a resort
    hotel more than 25 miles from a NASA Center as the conference location. Finally, we
    also identified costs related to light refreshments and hotel reservations that were
    relatively high when compared to Government allowances for the area but not
    inappropriate based on existing conference guidance.

            Incomplete Data Provided. The NASA conference planner estimated a flat
    airfare rate for each attendee of $300. We reviewed the airfare paid by 37 conference
    attendees and determined the average fare paid was approximately $423.2 This difference
    of $123 significantly increased the overall conference costs. In addition, the planner did
    not estimate lodging or ground transportation costs as required and noted in the
    instructions for completing GRC-634. Therefore, the airfare information the planner
    recorded was of limited use in determining total travel costs for NASA attendees.


    2
        We were unable to review the vouchers for all conference attendees to determine the actual average of
        airfare because NASA was unable to provide an accurate listing of NASA employees who attended the
        conference.



6                                                                                      REPORT NO. IG-09-002
RESULTS



   In addition, according to the GRC-634 instructions, the planner is to estimate conference
   services costs and provide examples of such costs as meeting room audiovisual
   equipment, light refreshments, and printing. However, the approval form for this
   conference did not list any specific items and costs for audiovisual equipment or food and
   beverages; it only states “No minimums required, rates are negotiable – meets minimum
   requirements.” NASA reported that the actual amount spent on audio visual and food
   and beverage costs was approximately $21,375 with an additional $59,840 spent on
   contractor support, facilities, and other miscellaneous items/services.

          M&IE Issues. The light refreshment costs for this conference totaled about
   $19,500. Items provided included non-alcoholic beverages, fruit, bagels, and cookies.
   The cost for these items for the 3 days of the conference equaled about $47 per day per
   person, which by itself is 96 percent of the $49 daily meals and incidental expense
   (M&IE) rate.3 The conference planner did not include any information regarding light
   refreshments in the records of costs for any of the three alternative locations considered;
   therefore, we were unable to determine if the actual costs were reasonable. While these
   costs were not inappropriate, based on existing conference guidance, they do represent
   96 percent of the total daily M&IE for the conference.

           Hotel Booking Fees. NASA also paid an $11,137 fee to a contractor for
   reserving 125 hotel rooms. The contractor’s firm fixed price contract included a
   20 percent fee for all direct costs.4 The contractor reserved a block of hotel rooms for
   $55,685 for conference attendees, which made the cost of hotel rooms a direct cost and,
   therefore, subject to the 20 percent fee. NASA would have saved $11,137 if conference
   attendees had paid for their hotel rooms with their Government-issued travel cards.
   Further, because of the firm fixed price contract, NASA paid the contractor $55,685 for
   the 125 rooms even though the contractor only paid the hotel $51,012.04. With this
   $4,672.96 overpayment, in total, NASA spent $15,809.96 more than what would have
   been paid if conference attendees had paid for their hotel rooms with their Government-
   issued travel cards. NASA is unable to recoup the $4,672.96 overpayment because this
   was a firm fixed priced contract, which places the burden of performance on the
   contractor and is not subject to any adjustment based on actual cost.

           Inappropriate Site Selected. The conference planner decided to conduct the
   procurement conference at the Orlando World Center Marriott Resort and Convention
   Center, which the conference planner stated was not a resort location. The site amenities
   include a spa, five restaurants, four swimming pools, a jogging/fitness trail and a fitness
   center, sauna, scuba diving, miniature golf, and a golf course. Approval of this resort

   3
       The M&IE rate is established by GSA for travel and is meant to reimburse employees on official travel
       for expenses incurred.
   4
       The normal fee is 10 percent of direct costs; however, due to the unforeseen bankruptcy of the original
       contractor for this conference, NASA had to issue an emergency contract, as allowed under Federal
       Acquisition Regulations, to the subcontractor originally performing the work. Therefore, the contractor
       was able to charge a 20 percent fee for this conference. Although NASA was unable to prevent the
       10 percent increase, the normal fee would have still resulted in an expense of approximately $6,000.



REPORT NO. IG-09-002                                                                                             7
                                                                                           RESULTS



    location conflicts with the NASA Administrator’s November 2005 memorandum that
    states employees should take care to select event locations that minimize to the greatest
    extent possible any appearance of impropriety and that are within 25 miles of a NASA
    Center, which would decrease associated travel costs.

    Fundamental Aeronautics Program Annual Conference. For the FAP Annual
    Conference, NASA used a contractor as the event planner. The contractor, rather than
    the NASA conference planner, completed the required approval form and underestimated
    costs by approximately $290,000, or 389 percent. The underestimation resulted because
    the contractor did not include information that would have provided a more accurate
    overall estimate. Specifically, the form did not include an estimated number of NASA
    attendees, travel costs, or conference service costs. Further, we identified costs related to
    light refreshments and Government-provided meals that were relatively high when
    compared to Government allowances for the area but not inappropriate based on existing
    conference guidance. Finally, we found that the conference location selected was more
    than 25 miles from a NASA Center.

            Incomplete Data Provided. Although the contracted event planner did estimate
    the daily M&IE rate and lodging rate for three alternative locations considered, the
    planner did not estimate airfare or ground transportation costs for any conference
    attendees. The collective airfares of attendees traveling from the various NASA Centers
    to the conference should have been an important consideration in estimating total travel
    costs, especially since the three locations considered were in different cities, which would
    have a significant impact on airfare costs.

            M&IE Issues. NASA stated that approximately $107,600 was spent on food and
    beverages for this conference. That amount comprised a single Government-provided
    meal and daily light refreshments. The cost breakdown was about $18,500 for lunch and
    about $89,100 for light refreshments. Thus, the cost to NASA for the one lunch provided
    was approximately $49 per person, while the M&IE amount allowable for one lunch in
    New Orleans is $16. Further, the cost per person per day to NASA for the light
    refreshments provided was about $59 and is equivalent to the entire M&IE daily rate for
    New Orleans. While the contracted event planner did record estimated food and
    beverage costs ($60,000) and audiovisual costs ($15,000), the amount spent was
    approximately $107,600 for food and beverages and approximately $32,520 for audio
    visual. Based on the information we examined, we could not determine why the actual
    costs were significantly higher than the estimated costs.

            Inappropriate Site Selected. None of the three locations considered was within
    25 miles of a NASA Center. The lodging and M&IE rates were equivalent in all three
    locations and, therefore, would not have had a significant impact on cost. However, had
    the planner sought a hotel within 25 miles of a NASA Center, NASA could have saved
    on hotel accommodations.




8                                                                           REPORT NO. IG-09-002
RESULTS



   Aviation Safety Technical Conference. The Aviation Safety Technical Conference was
   also arranged by a contracted event planner; and, for this conference also, the contractor
   completed NASA’s required approval form instead of the NASA conference planner.
   The cost estimates were underestimated by approximately $159,000, or 265 percent.
   This occurred because the contracted event planner did not provide an estimate for all the
   items needed to adequately estimate travel and conference service costs. Specifically, the
   form did not include an estimated number of NASA attendees, travel costs, or conference
   service costs. Finally, we identified costs related to light refreshments and Government
   provided meals that were relatively high when compared to Government allowances for
   the area but not inappropriate based on existing conference guidance. Further, we found
   that the conference location selected was more than 25 miles from a NASA Center.

           Incomplete Data Provided. Although the contracted event planner did record the
   daily M&IE rate and lodging rate for the three hotels considered, the planner did not
   estimate airfare or ground transportation costs for any conference attendees. Also, the
   contracted event planner, as required, recorded estimated food and beverage costs and
   audiovisual costs for the hotel selected but provided no estimated food and beverage
   costs for the other two locations considered, which does not allow for a cost comparison
   to determine the most cost-efficient location.

          M&IE Issues. NASA stated that approximately $61,000 was spent on food and
   beverages for this conference. The amount comprised two Government-provided meals
   and daily light refreshments. The cost breakdown was about $23,000 for lunches and
   $38,000 for light refreshments. The cost to NASA for each lunch was approximately
   $43 per person, while the M&IE amount allowable for one lunch in St. Louis is $16.
   Further the cost per person per day to NASA for the light refreshments provided was
   about $39 per day or 66 percent of the daily $59 M&IE rate.

          Inappropriate Site Selected. St. Louis is not within 25 miles of any NASA
   Center. Had the planner sought a hotel within 25 miles of a NASA Center, it is likely
   that NASA could have saved on hotel accommodations.


Improved Guidance Needed

   Incomplete estimates of conference costs for the three conferences we reviewed occurred
   primarily because the NASA officials responsible for planning and/or approving the
   conference estimates were unaware of the information required by NASA’s FMR for
   estimating conference costs. Conference planners and approvers stated they were not
   aware that the forms were incomplete. Specifically, they were not aware that they were
   required to list on the form all the costs associated with travel and conference services.
   The officials responsible for approving the cost estimates for all three conferences all
   believed that the only estimated costs that required documentation and approval were the
   common expenses incurred by the contractor such as refreshments and audiovisual
   services. Conference expenses incurred directly by the attendees, but ultimately paid by


REPORT NO. IG-09-002                                                                            9
                                                                                         RESULTS



     NASA, such as airfares and hotel charges were excluded from the initial conference
     estimates. Although the instructions for preparation of GRC-634, are clear—that all
     costs should be included when preparing the form—these instructions are not included in
     the FMR. Further, the FMR does not identify a form number or reference that
     instructions can be found in connection with GRC-634. Incomplete forms are of limited
     value to officials responsible for financial approval of total conference costs and are
     ineffective in ensuring that the requirements of the FTR are met.

     Although the approval form was provided in the FMR, we did find that the instructions
     for the form were not. We did find them through the NASA Electronic Forms Web site.
     The need to seek out the instructions could explain why the NASA officials responsible
     for planning and/or approving the conference estimates were unaware of the information
     required and why they did not address that some costs were not included on the form.
     FTR guidance, however, clearly states that agencies must minimize all conference costs,
     including administrative costs and conference attendees’ travel costs, and to minimize
     travel costs, conference planners would need to identify conference expenses incurred
     directly by the attendees such as airfare and hotel charges. Further, the NASA
     Administrator’s November 2005 memorandum provides guidance regarding the choice of
     conference sites, specifically recommending sites within 25 miles of a NASA Center to
     reduce hotel charges, and notes problems of selecting resort hotels—i.e., creating the
     appearance that the event is wasting Government resources in order to facilitate personal
     vacations or entertainment for employees.


Conclusion

     Due to inadequate conference planning and an incorrect understanding of NASA’s cost
     estimation requirements, NASA conference planners significantly underestimated
     conference costs for three conferences reviewed—the Procurement Training Conference
     by approximately $153,260, or 162 percent; the FAP Annual Conference by $291,517.50,
     or 389 percent; and the Aviation Safety Technical Conference by $158,814, or
     265 percent. Further NASA spent approximately $147,000 on light refreshments for the
     three conferences we reviewed, which were relatively high when compared to
     Government allowances for the area but not inappropriate based on existing conference
     guidance. The cost of light refreshments represented 96 percent of the M&IE for the
     Procurement Training Conference, 100 percent of the M&IE for the FAP Annual
     Conference, and 66 percent of the M&IE for the Aviation Safety Technical Conference.
     Incomplete forms are misleading and prevent conference planners from complying with
     FTR requirements. In addition, NASA officials are unable to make sound and informed
     decisions when selecting the most cost-effective conference site because the data they are
     using is incomplete. Underestimated costs also increase NASA’s risk that sponsoring
     organizations may not have funds available to pay all conference costs.




10                                                                         REPORT NO. IG-09-002
RESULTS



Management’s Comments on the Finding and Evaluation of
 Management’s Comments

   Management’s Comments on the Findings. In response to a draft of this report, the
   Deputy CFO provided comments on various issues discussed in this finding. (See
   Appendix D for the full text of management’s comments.)

   To summarize, the Deputy CFO noted that the Consolidation Appropriations Act of
   2008, passed late in the first quarter of FY 2008, led to challenges for NASA in
   developing the required reports, including the limitations in NASA’s current systems.
   The Deputy CFO also stated that the OIG’s comparison of the total light refreshment
   costs to the number conference attendees was not appropriate—i.e., “the OIG is
   comparing apples to oranges”—because less than half the attendees at the two
   Aeronautics conferences discussed were NASA employees.

   The Deputy CFO also faults our comparisons between estimated conference costs and
   actual conference costs. He states that the comparisons appear to be based “on an
   incomplete appreciation of the process by which a final approved cost estimate was
   reached, and an interpretation about the required use of the Approval to Conduct forms,”
   which “is currently optional, an approved means to satisfy the requirement of
   FTR 301-74.” As an example, the Deputy CFO cites the Procurement Training
   Conference and states that the Office of Procurement reported targeting a cost estimate of
   $216,000 for the conference, but the support service contractor’s bankruptcy 2 weeks
   before the conference led to a price increase from $116,856 to $136,900. The Deputy
   CFO states that OIG distorted the percentage difference between the conference cost
   estimate and the actual cost partially because we used the estimated total cost of $94,863
   and excluded the contractor’s price increase and that the difference between the estimated
   and the actual cost is less than 6 percent.

   Finally, the Deputy CFO comments that the audit report is partially inaccurate with
   regard to our reporting that the audit scope was also limited due to a disagreement
   between NASA and the OIG on the interpretation of the reporting requirement. The
   Deputy CFO states that by the time NASA prepared its annual report for all conferences,
   the OIG had reconsidered its initial position and subsequently adopted NASA’s
   interpretation with respect to routine training being outside the Act’s scope.

   Evaluation of Management’s Comments. In response to the NASA Deputy CFO’s
   comments, we have addressed each of his concerns.

   With regard to when the Consolidated Appropriations Act was signed into law by the
   President of the United States, December 26, 2007, we have added this date to the
   background of the report to provide additional context.

   With regard to the total spent per day per conference attendee on light refreshments, the
   OIG divided the total spent on refreshments by the total number of conference attendees,


REPORT NO. IG-09-002                                                                            11
                                                                                        RESULTS



     as provided by NASA to include non-NASA attendees. The total per person per day
     equated to 96 percent of the M&IE rate for the Procurement Training Conference,
     100 percent of the M&IE rate for the FAP Conference, and 66 percent of the M&IE rate
     for the Aviation Safety Conference. Since we made a direct analysis of total light
     refreshment costs to total number of attendees—i.e., apples to apples—the comparison is
     appropriate.

     The Deputy CFO suggests that our findings related to differences between estimated
     costs and actual costs result from an incomplete understanding of the approval process
     for a final cost estimate and misinterpretation of NASA policy requirements. We note
     that the NASA FMR, Volume 12, Appendix A, Part 301-740 - Conference Planning,
     Section 301-74.19, states that “The recording requirements of FTR 301-74.19 will be
     fulfilled by completion and retention of the NASA Sponsored Conference – Approval to
     Conduct form . . ..” Thus, use of the NASA Sponsored Conference – Approval to
     Conduct form is mandatory. FTR 301-74.19 states that for each conference, Agencies
     must maintain a record of the cost of each alternative conference site considered. Costs
     to be included, according to FTR 301-74.2, are all direct and indirect costs paid by the
     Government. Therefore, the estimated total cost of the conference as recorded on the
     NASA Sponsored Conference – Approval to Conduct form should include an estimate of
     all direct and indirect costs. Using the Deputy CFO’s example of the Procurement
     Training Conference, the NASA Sponsored Conference – Approval to Conduct form for
     that Conferences states the estimated total cost was $94,863. Adding the increase of
     $20,044 due to the emergency procurement contract, as calculated by NASA, the total
     estimated conference cost would only be $114,907. This would still result in an
     underestimate of $133,216.11 or approximately 116 percent.

     Finally, concerning our audit scope limitation based on whether to include training
     conferences, on February 20, 2008, NASA issued guidance on the Act’s reporting
     requirements. Specifically, NASA issued the Conference Costs Reporting Requirements
     Frequently Asked Questions guidance, which stated that training was not reportable. On
     May 7, 2008, the OIG met with officials from NASA’s Office of the General Counsel
     and OCFO to discuss NASA’s guidance with regard to meeting the Act’s requirements.
     The OIG stated that formal training by an official training institute might not be
     reportable under the Act; but NASA-sponsored, off-site training provided to NASA and
     non-NASA employees with costs exceeding $20,000 is reportable. NASA and OIG are
     now in agreement that such conferences should be reported; however, NASA may have
     excluded them from the data provided for the first quarter of FY 2008.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The NASA Chief Financial Officer should include instructions for
completing NASA Sponsored Conference – Approval to Conduct form, within the FMR,
clarify the form number, and ensure that all conference planners are aware of Federal and


12                                                                        REPORT NO. IG-09-002
RESULTS



Agency conference planning policies and procedures, to include the policies put forth in the
NASA Administrator’s November 16, 2005, memorandum.

   Management’s Response. The Deputy Chief Financial Officer concurred and stated that
   OCFO will issue appropriate instructions by December 31, 2008.

   Evaluation of Management’s Response. Management’s comments are responsive;
   however, the recommendation will remain open until we evaluate the new instructions.
   At that time, we will determine whether the instructions provide sufficient guidance for
   completing the NASA Sponsored Conference – Approval to Conduct form and whether
   the form and instructions are contained in the FMR; whether the form number is clearly
   identifiable; and whether OCFO has provided a means to ensure that all conference
   planners are aware of Federal and Agency conference planning policies and procedures,
   to include the policies put forth in the NASA Administrator’s November 16, 2005,
   memorandum.




REPORT NO. IG-09-002                                                                           13
                                                                                       RESULTS




                                                 FINDING B: INCORRECT MEAL
                                                 ALLOWANCES PAID TO NASA
                                                     CONFERENCE ATTENDEES

            Cost documentation we reviewed for the three NASA-sponsored conferences
            showed that NASA incorrectly reimbursed employees attending the conferences for
            unallowable meals that were expensed on the employee’s travel voucher.
            Specifically, we found instances where M&IE was not adjusted when meals were
            furnished by the Government, M&IE rates were not calculated correctly on the first
            or last day of travel, and M&IE amounts were paid twice. These incorrect meal
            allowances occurred because NASA travelers and travel voucher preparers did not
            adjust M&IE rates appropriately, and approvers did not identify inappropriate M&IE
            rates during review. As a result, we identified a 41 percent error rate related to
            M&IE payments for the vouchers reviewed. In addition, for the three conferences
            combined, NASA paid inappropriate conference expenditures relating to M&IE of at
            least $1,299. While the total amount is immaterial, the high percentage of errors on
            the vouchers reviewed is an indication of a potential internal control weakness.


M&IE Rate Adjustments

     FTR Section 301-11.18 states that the M&IE rate must be adjusted for meals furnished to
     the traveler by the Government. GSA sets the M&IE rate for various localities as well as
     the individual rate that the M&IE must be reduced when breakfast, lunch, or dinner is
     provided by the Government. GSA’s FY 2008 M&IE rate for both the Aviation Safety
     Technical Conference and FAP Annual Conference localities was $59 per day, of which
     $16 must be reduced for furnished lunches. Further, FTR Section 301-11.101 states that
     travelers should be reimbursed for three-quarters of the M&IE rate on days the
     employees are traveling to and from their temporary duty location.

     NASA travelers create travel vouchers that are then approved by the Travel Manager
     System’s Reviewing and Approving Official. The NASA Shared Services Center
     (NSSC) is then responsible for processing all travel vouchers. The NSSC’s policy is to
     not collect overpayments of less than $50 because of the cost associated with the
     collection process.


Incorrect M&IE Paid to Conference Attendees

     For the three conferences we reviewed, we used a statistical sample to select NASA civil
     service personnel who attended each conference and then reviewed the employee’s travel
     voucher for accuracy (see Appendix A for further details on the sampling process). We



14                                                                       REPORT NO. IG-09-002
RESULTS



   were unable to project the results of our statistical sample because NASA was unable to
   provide us an accurate listing of conference attendees for any of the three conferences
   reviewed. Without an accurate list of attendees, we could not determine the percentage
   of travel vouchers that were inaccurate. However, we identified a 41 percent error rate
   related to M&IE errors for the vouchers reviewed (Table 3).

                             Table 3. Travel Voucher M&IE Errors
                                 Number of                                 Total Dollar
                                 Vouchers     Number of     Percentage      Value of
          Conference Title       Reviewed      Errors        of Errors       Errors
      Procurement Training
                                       37            4            11           $306
      Conference

      Fundamental Aeronautics
      Program Annual                   29           16            55           $299
      Conference

      Aviation Safety
                                       35           21            60           $694
      Technical Conference

          Total                       101           41            41         $1,299



   Specifically, some travelers did not adjust M&IE rates for meals provided by NASA
   during the conference, M&IE was not calculated correctly on the first or last day of
   travel, and M&IE amounts were paid twice. Although the monetary amount of the
   individual and collective errors is immaterial, the percentage of errors on the vouchers
   reviewed is material and is an indication of a potential internal control weakness.

   M&IE Not Adjusted for Meals Provided. For two of the three conferences reviewed,
   NASA provided meals as part of the conference; therefore, the NASA employee needed
   to reduce the daily M&IE for the meal(s) provided based on FTR requirements.
   However, vouchers reviewed for 33 of 64 conference attendees, or 52 percent, did not
   adjust the M&IE rates on their travel vouchers for meals paid for by NASA, totaling
   $768.

      •    During the Aviation Safety Technical Conference, NASA provided two lunches;
           therefore, NASA employees should have reduced their daily $59 M&IE rate by
           $16 per day. We found that 18 of the 35 NASA employees (51.4 percent) did not
           reduce their M&IE for one or both lunches, for a total overpayment of $528.

      •    During the FAP Annual Conference, NASA funded one lunch, thereby reducing
           the employee’s $59 daily M&IE by $16 per day. We found that 15 of the 29




REPORT NO. IG-09-002                                                                          15
                                                                                                           RESULTS



                NASA employees (52 percent) did not reduce their M&IE for the lunch provided
                by NASA, for a total overpayment of $240.

     Incorrect M&IE Calculation. Eight employees received a total of $531 in travel
     reimbursements for incorrectly calculated M&IE. Specifically, seven employees
     received a combined total reimbursement of $311 for a full-day M&IE rate on the first or
     last day of travel instead of the 3/4-rate required by the FTR.

           •    For the Procurement Training Conference, three employees were incorrectly
                reimbursed a total of $86.

           •    For the Aviation Safety Technical Conference, three employees were incorrectly
                reimbursed a total of $166.

           •    For the FAP Annual Conference, one employee was incorrectly reimbursed $59.

     In addition, one employee was reimbursed twice for 5 days of M&IE for a total
     overpayment of $220.5


Conclusion

     Employees were incorrectly reimbursed for M&IE at three conferences because NASA
     travelers and travel voucher preparers did not adjust M&IE appropriately. Further,
     approvers did not identify inappropriate M&IE rates during review. As a result of the
     lack of thorough reviews of the travel vouchers, NASA paid for duplicate lunches for the
     employees. Specifically, NASA inappropriately spent approximately $768 for
     Government-provided meals and an additional $531 for the non-reduced M&IE.
     Although the monetary amount of the individual and collective errors/overpayments is
     immaterial, the percentage of errors on the vouchers reviewed is material and indicates a
     potential internal control weakness on the part of preparers and approvers. Since most of
     the overpayments to travelers were less than $50 and it is NSSC’s policy not to collect
     amounts under $50, we are not making a recommendation to collect those overpayments.
     However, we will provide to NASA a list of travelers who received overpayments
     exceeding $50 to ensure that NSSC collects those overpayments.




     5
         The duplicative payment resulted from the traveler completing two travel vouchers because two funding
         sources were used to fund the travel. The traveler realized the error after electronically signing the
         voucher and immediately notified the applicable administrative staff (who entered the data), the manager,
         and the NASA Shared Service Center to initiate the collection process. However, the NSSC did not
         generate a bill of collection until August 14, 2008, after we inquired about the overpayment.



16                                                                                        REPORT NO. IG-09-002
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 2. The NASA Chief Financial Officer should remind travelers, travel
voucher preparers, and approvers of the Federal Travel Regulation requirement to reduce
rates for Meals and Incidental Expense provided by the Government during temporary duty
travel.

   Management’s Response. The Deputy CFO concurred and stated that OCFO will issue
   appropriate instructions by December 31, 2008.

   Evaluation of Management’s Response. Management’s comments are responsive;
   however, the recommendation will remain open until we evaluate the new instructions.
   At that time, we will determine whether the instructions issued remind travelers, travel
   voucher preparers, and approvers of the Federal Travel Regulation requirement to reduce
   rates for the Meals and Incidental Expense provided by the Government during
   temporary duty travel.

Recommendation 3. The NASA Chief Financial Officer should require NASA conference
planners to notify attendees when Meals and Incidental Expense should be adjusted because
meals have been provided by the Government at a NASA-sponsored conference.

   Management’s Response. The Deputy CFO partially concurred but noted that
   conference planners might not always be the appropriate or most effective person(s) to
   provide attendees with a reminder about the Federal Travel Regulation’s requirements
   regarding reducing allowable Meal and Incidental Expense. The Deputy CFO further
   stated that the OCFO will issue appropriate guidance on complying with the Federal
   Travel Regulation’s requirements and NASA’s FMR by December 31, 2008.

   Evaluation of Management’s Response. Management’s comments are responsive;
   however, the recommendation will remain open until we evaluate the new guidance. At
   that time, we will determine whether the instructions issued meet the intent of the
   recommendation that attendees are notified directly when meals are being provided by
   the Government.




REPORT NO. IG-09-002                                                                          17
APPENDIXES




                                                                             APPENDIX A


Scope and Methodology

   We performed this audit from April 2008 through October 2008 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives. We performed our review at the Glenn Research Center, the
   Goddard Space Flight Center, NASA Headquarters, and Stennis Space Center.

   Scope Limitation. The scope of our audit was limited due to NASA providing the
   conference data for the first quarter on July 7, 2008, and for the second quarter on
   July 25, 2008, which precluded a thorough analysis. The Consolidated Appropriations
   Act, 2008 (Public Law 110-161), requires NASA to provide quarterly and annual reports
   concerning FY 2008 and future conference attendance and expenses to the OIG. The
   Office of the Chief Financial Officer (OCFO) determined that the reporting requirement
   applied to NASA Headquarters, NASA Centers, and Mission Directorates. The OCFO
   directed those entities to provide to OCFO by February 10, 2008, an initial submission to
   include separate conference reports for FY 2007, the first quarter of FY 2008, and a
   projection of total costs for conferences in FY 2008. However, the OCFO did not submit
   its initial first quarter FY 2008 draft report to the OIG until May 15, 2008, and failed to
   submit the final first quarter report until July 7, 2008.

   Public Law 110-161 requires the OIG to analyze the conference reports, make
   recommendations if necessary, and provide a report citing each occurrence and
   recommendation to the House and Senate Appropriation Committees no later than
   September 30, 2008. However, the required audit scope, the untimely data submission,
   and the time needed for report preparation, all compounded by the impending
   September 30, 2008, deadline, limited our audit scope to reporting on the three
   conferences identified in the draft first quarter FY 2008 report. In the final version, dated
   July 7, 2008, NASA reported a fourth conference to the OIG that took place during the
   first quarter of FY 2008. But the time constraints precluded our reviewing this
   conference as part of this audit. The fourth conference was the Exploration Systems
   Mission Directorate Technology Exchange Conference held in Galveston, Texas, from
   November 11–15, 2007. This conference had 319 attendees and cost NASA
   approximately $186,000.

   The scope of our audit was limited to a disagreement between NASA and OIG on the
   interpretation of the reporting requirement. Specifically, reports for the first and second
   quarter on conferences with costs exceeding $20,000 may have excluded training


REPORT NO. IG-09-002                                                                               19
                                                                                        APPENDIX A



     conferences and excluded conferences that were attended only by NASA employees and
     NASA contractors because NASA was considering contractors to be employees. NASA
     has since agreed with the OIG to include conferences at which NASA provides training
     to attendees off-site (i.e., not at a NASA facility) and conferences attended by NASA and
     NASA contractors. This resulted in a scope limitation because these two categories were
     excluded from the first quarter report we reviewed.

     Regulations, Policies, and Procedures. To determine whether NASA conducted the
     reported conferences in accordance with Federal regulations and NASA policies and
     procedures, we reviewed the following laws, regulations, policies, and procedures:

        •   Consolidated Appropriations Act, 2008, December 19, 2007;

        •   Administrator Memorandum, “Planning Agency-Sponsored Events,”
            November 16, 2005;

        •   Federal Travel Regulation, Chapter 301, “Temporary Duty (TDY) Travel
            Allowances,” January 2004;

        •   NASA Financial Management Requirements, Part 301-11, Per Diem Expenses,
            and Part 301-74, Conference Planning, December 2007;

        •   NASA Federal Travel Regulation Supplement, Volume 12, Appendix A; and

        •   NASA Memorandum to Senator Coburn, March 5, 2008.

     For the three conferences reviewed, we met with senior-level Headquarters officials
     responsible for planning the conferences and approving the conference location
     decisions. In addition, for each conference we met with conference planners, contracting
     officers, contracting officer’s technical representatives, and technical representatives for
     the conference tasks. We also reviewed travel vouchers for conference attendees, using
     statistical sampling techniques, and reviewed the statistical sampling plan for the NSSC.

     Sampling Methodology. We selected a statistical sample of conference attendees for
     each conference to review their travel authorizations and vouchers. We determined
     sample size, critical error rate, and the maximum risk to bear for each conference. To
     determine sample size, we used the Defense Contract Audit Agency sampling software,
     “EZ Quant Attribute Discovery Sample Size Procedure,” for attribute discovery samples.
     An attribute discovery sample is a special case of attribute sampling in which the
     occurrence of a single error constitutes a failure of the universe. A critical error rate is
     the maximum universe error rate considered acceptable, and the Government risk is the
     complement of confidence level (probability).




20                                                                           REPORT NO. IG-09-002
APPENDIX A



      •   For the Procurement Training Conference, EZ Quant produced a sample size of
          38 attendees based on NASA’s universe of 119 attendees, a critical error rate of
          5 percent, and a maximum Government risk rate of 10 percent.

      •   For the FAP Annual Conference, EZ Quant produced a sample size of 39 not
          37 attendees based on NASA’s universe of 211 attendees, a critical error rate of
          5.2 percent, and a maximum Government risk rate of 10 percent.

      •   For the Aviation Safety Technical Conference, EZ Quant produced a sample size
          of 37 not 39 attendees based on NASA’s universe of 133 attendees, a critical error
          rate of 5.3 percent, and a maximum Government risk rate of 10 percent.

  However, after we selected our statistical samples, we determined that the universes
  provided to us by NASA included names of NASA employees who did not attend the
  conferences or submit vouchers. Therefore, we reviewed 37 vouchers for the
  Procurement Training Conference, 29 for the FAP Annual Conference, and 35 for the
  Aviation Safety Technical Conference. Since NASA was unable to provide us an
  accurate listing of conference attendees, we are unable to project the results of our
  analysis to the conferences as a whole.

  Use of Computer-Processed Data. During the audit fieldwork, we relied on computer-
  processed data provided to us by NASA personnel for our review and analysis. The data
  sources include data in Excel spreadsheets and PDF files that NASA OCFO generated
  out of the following systems and provided to us for our review:

      •   Travel Manager

      •   SAP [Systems, Applications, and Products]/Business Warehouse

      •   SATERN [System for Administration, Training, and Educational Resources for
          NASA]

  During the audit fieldwork, nothing specific from the provided data came to our attention
  to cause us to question the validity of the data generated and provided to us out of the
  above systems for the conferences reviewed. However, we also realize that NASA
  conceded that errors could exist due to a highly labor intensive effort in gathering and
  reporting the conference data.


Review of Internal Controls

  We reviewed and evaluated internal controls associated with planning the conferences to
  ensure that NASA obtained adequate competition and that management selected the
  conference site in accordance with Agency guidance. We also reviewed internal controls
  associated with the accuracy and reliability of travel vouchers. We identified a control


REPORT NO. IG-09-002                                                                           21
                                                                                       APPENDIX A



     weakness in the preparation and approval of travel vouchers that resulted in NASA
     incorrectly reimbursing employees.


Prior Coverage

     We identified two reports from external agencies that are of particular reference to the
     subject of this report.

     Department of Justice OIG

     “Department of Justice Conference Expenditures” (Audit Report 07-42,
     September 2007). The audit team found that three types of costs associated with
     conferences—external event planning, food and beverages, and audio-visual—
     represented more than 70 percent of the cost of planning and hosting conferences. In
     addition, the audit team identified some incurred expenses that, while allowable,
     appeared to be extravagant. Specifically, DOJ questioned costs for food and beverages
     exceeding established M&IE rates for the conference locations and attendees’ failure to
     reduce the M&IE claimed on related travel vouchers as required by the FTR.

     Transportation Security Administration OIG

     “Assessment of Expenditures Related to the First Annual Transportation Security
     Administration Awards Program and Executive Performance Awards” (OIG-04-46,
     September 2004). The assessment found that although TSA obtained competitive bids
     for some of the services needed for the award program, it did not solicit competitive bids
     when selecting a site nor did it compare the total costs associated with different site
     selections or ceremony configurations. In addition, the assessment determined some of
     the awards associated with the awards program to be excessive.




22                                                                          REPORT NO. IG-09-002
APPENDIX B




                       CONFERENCE APPROVAL FORM




REPORT NO. IG-09-002                              23
              APPENDIX B




24   REPORT NO. IG-09-002
APPENDIX C




                       NASA ADMINISTRATOR’S
                               MEMORANDUM




REPORT NO. IG-09-002                          25
              APPENDIX C




26   REPORT NO. IG-09-002
APPENDIX C




REPORT NO. IG-09-002   27
                      APPENDIX D




     MANAGEMENT COMMENTS




28           REPORT NO. IG-09-002
APPENDIX D




                       We added,
                       in the first
                       sentence on
                       page 1, the
                       date Pub.
                       Law 110-
                       161 was
                       enacted.




REPORT NO. IG-09-002       29
              APPENDIX D




                    We noted,
                    on page 5
                    that the in-
                    structions
                    were not
                    included in
                    the FMR.




30   REPORT NO. IG-09-002
APPENDIX D




REPORT NO. IG-09-002   31
                                                                                 APPENDIX E




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Financial Officer

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Space, Aeronautics, and Related Sciences
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




32                                                                    REPORT NO. IG-09-002
Major Contributors to the Report:
   Dan Devlin, Director, Human Capital and Institutional Management Directorate
   Nicole Ellis, Project Manager
   Daniel Birnbaum, Auditor
   Lynette Westfall, Auditor
   Mike Bruns, Auditor
   Bruce Schmidt, Management Analyst
   Janet Overton, Editor




REPORT NO. IG-09-002                                                              33
                                                                                 OCTOBER 29, 2008
                                                                      REPORT No. IG-09-002




                                                                               OFFICE OF AUDITS

                                                               OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact
the Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Special
Projects and Quality Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183
or 800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089,
L’Enfant Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The
identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.
